APPENDIX A
la
FIFTH DIVISION MCFADDEN, P. J„ RICKMAN
and MARKLE, JJ
NOTICE: Motions for reconsideration must be
physically received in our clerk’s office within ten
days of the date of decision to be deemed timely
filed, http://www.gaappeals.us/rules
January 10, 2019 NOT TO BE OFFICIALLY
REPORTED
In the Court of Appeals of Georgia
A18A1993. GRIFFIN v. HUMANA EMPLOYERS
HEALTH PLAN OF GEORGIA, INC.
This appeal arises from claims submitted by pro se
appellant W. A. Griffin, M.D. to Humana
Employers Health Plan of Georgia, Inc.
(“Humana”) for dermatological services she
provided to Humana’s insureds as an out-of­
network provider. Dr. Griffin disagrees with
Humana’s denial of claims submitted by her and
the rate at which Humana paid for her services.
Three of Dr. Griffin’s patients executed a document
purporting to assign to Dr. Griffin their respective
rights to reimbursement from Humana. Dr. Griffin
then filed suit against Humana for breach of
contract, breach of the covenant of good faith and
fair dealing, and violations of Georgia’s civil RICO
law. The trial court granted summary judgment to
Humana on all of Dr. Griffin’s claims, and she now
appeals. We find no error in the record transmitted
to us on appeal, and thus we affirm.

2a
Dr. Griffin contends the trial court erred in
granting summary judgment to
Humana for several reasons. We cannot agree. In
its order denying summary judgment, the trial
court cited to Dr. Griffin’s complaint, the
documents
purportedly
assigning
claims,
Humana’s motion for summary judgment, the plan
documents for the patients whose claims are at
issue, an affidavit, and Dr. Griffin’s responses to
requests for admission. Dr. Griffin, however, only
designated the trial court’s order to be transmitted
on appeal, and she specifically requested that all
other documents be omitted from the record on
appeal.1 Consequently, these documents the trial
court relied upon are not in the record for this
Court to review.
When an appellant omits evidence necessary for
determination of issues on appeal affirmation is
required. It is well established that the burden is
on the party alleging error to show it by the record
and that where the proof necessary for
determination of the issues on appeal is omitted
from the record, an appellate court must assume
that the judgment below
Dr. Griffin initially instructed the trial court to omit nothing
from the record on appeal, but subsequently filed an amended
notice of appeal instructing the trial court to omit everything
except its order granting summary judgment.

3a
was correct and affirm. On appeal, this Court is
required to conduct a de novo review which, by
definition, is impossible if the appellant omits the
very evidence at the heart of our inquiry. Because
[Dr. Griffin] has purposefully omitted materials
relevant to our inquiry into whether summary
judgment was appropriate, we presume that the
trial court’s order granting summary judgment to
[Humana] was correct and affirm.
(Citation and punctuation omitted.) Kappelmeier
v. Prudential Ins. Co. of America,
306 Ga. App. 58 (1) (701 SE2d 488) (2010).
Accordingly, because Dr. Griffin
omitted the portions of the record that would
enable appellate review, we affirm the
trial court’s order granting summary judgment.
Judgment affirmed. McFadden, P.J., and Rickman,
J., concur.

APPENDIX B
lb
SUPREME COURT OF GEORGIA Case No.
S19C0678 September 03, 2019
The Honorable Supreme Court met pursuant to
adjournment. The following order was passed.
W. A. GRIFFIN v. HUMANA EMPLOYERS
HEALTH PLAN OF GEORGIA, INC.
The Supreme Court today denied the petition for
certiorari in this case.
All the Justices concur.
Court of Appeals Case No. A18A1993
SUPREME COURT OF THE STATE OF
GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.
/s/ T. S. Banus, Clerk

